May 2009
Report No. AUD-09-013


FDIC’s Corporate Investment Program




            AUDIT REPORT
                                            Report No. AUD-09-013                                                       May 2009

                                            FDIC’s Corporate Investment Program

                                            Audit Results
   Federal Deposit Insurance Corporation


Why We Did The Audit                        KPMG found that the FDIC had implemented a number of important controls
                                            designed to ensure that the DIF and NLF are managed consistent with the FDIC’s
The FDIC Office of Inspector General        Board-approved investment policies. Of particular note, DOF had developed
(OIG) contracted with KPMG LLP              detailed procedures and guidelines to manage the day-to-day operations of the funds.
(KPMG) to conduct a performance audit       Additionally, the FDIC had created an Investment Advisory Group to monitor the
of the FDIC’s Corporate Investment          performance of the funds and advise the CFO on investment strategies pertaining to
Program. The results of this audit          the funds. Further, the CFO and DOF officials reported regularly to the Board on
support the OIG’s commitment to FDIC        the funds’ performance and were taking proactive measures to help ensure the
management to conduct an independent
                                            viability of the funds in response to uncertainties in the banking industry. While
audit of the Corporate Investment
Program every 3 years.                      these actions are positive, control improvements in the following areas of the
                                            Corporate Investment Program are warranted.
The objective of the audit was to assess
the FDIC’s controls for ensuring that the   •   The FDIC’s Corporate Investment Policy and DOF’s detailed investment
Deposit Insurance Fund (DIF) and the            procedures and guidelines did not reflect current statutory definitions or
National Liquidation Fund (NLF) are             investment management practices in some areas.
managed consistent with the FDIC’s
                                            •   Although the FDIC has a strategy for responding to a liquidity contingency
investment policies approved by the
Corporation’s Board of Directors                involving the DIF, the FDIC can enhance its response planning by developing a
(Board). KPMG used the Government               comprehensive, written contingency funding plan that describes how the
Accountability Office’s Standards for           Corporation will implement its strategy under the various contingency scenarios
Internal Control in the Federal                 that could occur.
Government as the principal criteria for    •   Although DOF implemented a number of important controls over the purchase
conducting the audit.                           and sale of investment securities in the DIF and NLF, DOF’s investment
                                                procedures do not define a dual control over the authorization and execution of
Background                                      securities transactions wherein the authorization is documented in advance of
                                                the transaction by an individual other than the person responsible for executing
The DIF portfolio includes corporate            the transaction.
investments, while the NLF portfolio        •   Although DOF has taken steps to help ensure the integrity of its key computer-
includes funds held by the FDIC in its          based financial models, it had not ensured periodic independent validations of
receivership and corporate liquidator           the models to ensure they function as intended.
capacity. As of September 30, 2008, the
market value of the DIF and NLF were        These control improvements will help ensure that the Corporation’s investment
$34.59 billion and $2.86 billion,           management processes are repeatable, consistent, and disciplined and that
respectively.                               operational risk associated with staff departures is minimized. Such control
                                            improvements will also promote separation of duties and help mitigate the risk of
The management of the DIF and NLF is
governed by two separate policies           errors. KPMG identified one additional potential control enhancement pertaining to
approved by the Board. Among other          interest rate risk management that the firm is reporting separately because the matter
things, these policies define investment    was not considered significant in the context of the audit results.
objectives for the funds, key roles and
responsibilities, and reporting             Recommendations
requirements to the Board. The Board
delegated to the Deputy to the Chairman     KPMG recommended that the CFO and Director, DOF:
and Chief Financial Officer (CFO) the
                                              • update the Corporate Investment Policy and DOF’s detailed investment
responsibility for managing the DIF and
investing and accounting for the NLF.             procedures and guidelines (where appropriate) and perform periodic
The Director, Division of Finance                 program assessments to ensure controls operate as intended;
(DOF), under the general supervision of       • develop a comprehensive, written contingency funding plan for the DIF;
the CFO, is responsible for                   • establish a system of dual control over securities transactions; and
implementing the Corporation’s                • periodically validate key computer-based financial models.
investment strategies and for managing
the day-to-day financial transactions of
                                            Management generally concurred with KPMG’s recommendations and plans to take
the funds.
                                            responsive actions.

 To view the full report, go to www.fdicig.gov/2009reports.asp
Federal Deposit Insurance Corporation                                                               Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                Office of Inspector General


DATE:                                     May 14, 2009

MEMORANDUM TO:                            Steven O. App
                                          Deputy to the Chairman and Chief Financial Officer

                                          Bret D. Edwards, Director
                                          Division of Finance


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  FDIC’s Corporate Investment Program
                                          (Report No. AUD-09-013)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results.

Our evaluation of your response is incorporated into the body of the report. Your comments on
a draft of this report were responsive to all five of the report’s recommendations, which are
considered resolved. The recommendations will remain open for reporting purposes until we
have determined that agreed-to corrective actions have been completed and are responsive.

If you have questions concerning the report, please contact me at (703) 562-6350, or Mark F.
Mulholland, Deputy Assistant Inspector General for Audits, at (703) 562-6316. We appreciate
the courtesies extended to the audit staff.

Attachment

cc: Connie A. Brindle, DOF
    James H. Angel, Jr., OERM
                               Table of Contents


Part I

   Report by KPMG                                  I-1
   FDIC’s Corporate Investment Program



Part II

   Corporation Comments and OIG Evaluation         II-1

   Corporation Comments                            II-2

   Management Responses to Recommendations         II-6
      Part I

Report by KPMG LLP
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




May 14, 2009

Honorable Jon T. Rymer
Inspector General
Federal Deposit Insurance Corporation
3501 Fairfax Drive
Arlington, VA 22226


Re:     Transmittal of Results for the Audit of FDIC’s Corporate Investment Program (Report
        No. AUD-09-013)

Dear Mr. Rymer:

This letter is to acknowledge delivery of our final report representing the results of our performance
audit of the FDIC’s Corporate Investment Program in accordance with Task Assignment Number
08-08 dated September 26, 2008. The objective of this performance audit was to assess the FDIC’s
controls for ensuring that the Deposit Insurance Fund (DIF) and National Liquidation Fund (NLF)
are managed consistent with the FDIC’s investment policies approved by the Board of Directors
(the Board). As part of our work, we interviewed key officials with responsibility for managing and
implementing the Corporate Investment Program, including the Deputy to the Chairman and Chief
Financial Officer (CFO) and Division of Finance (DOF) officials. We also reviewed relevant FDIC
policies, procedures, guidelines, plans, and reports pertaining to the Corporate Investment Program.

We conducted our performance audit in accordance with Generally Accepted Government Auditing
Standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

In summary, we found that the FDIC had implemented a number of important controls designed to
ensure that the DIF and NLF are managed consistent with the FDIC’s Board-approved investment
policies. Of particular note, DOF had developed detailed procedures and guidelines to manage the
day-to-day operations of the funds. Additionally, the FDIC had created an Investment Advisory
Group to monitor the performance of the funds and advise the CFO on investment strategies
pertaining to the funds. Further, the CFO and DOF officials reported regularly to the Board on the
funds’ performance and were taking proactive measures to help ensure the viability of the funds in
response to uncertainties in the banking industry.

While these actions are positive, control improvements in some areas of the Corporate Investment
Program are warranted. Specifically, the FDIC’s Corporate Investment Policy and DOF’s detailed
procedures and guidelines did not reflect current investment management practices in some areas.
In addition, although the FDIC had a strategy for responding to a liquidity contingency involving
the DIF, the FDIC can enhance its response planning by developing a comprehensive, written
contingency funding plan that describes how the Corporation will implement its strategy under the
various contingency scenarios that could occur. Further, the FDIC can enhance its investment




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
management controls by implementing a system of dual control over the authorization and
execution of securities transactions and conducting periodic independent validations of key
computer-based financial models to ensure they function as intended. We identified one additional
potential control enhancement pertaining to interest rate risk management that we are reporting to
the Office of Inspector General (OIG) separately because we do not consider the matter to be
significant in the context of our performance audit results.

We issued a draft of this report on February 25, 2009. We subsequently met with representatives of
DOF and the OIG and obtained informal feedback on the draft report. Based on the informal
feedback we received, we made certain changes that we deemed appropriate. On May 8, 2009, the
CFO and Director, DOF, provided a formal written response to our draft report.

Our work did not include an assessment of the sufficiency of deposit insurance assessments or other
funding sources to cover anticipated losses from insured depository institutions. KPMG cautions
that projecting the results of our audit to future periods is subject to the risks that controls may
become inadequate because of changes in conditions or because compliance with controls may
deteriorate. The information included in this report was obtained from the FDIC on or before
February 25, 2009. We have no obligation to update our report or to revise the information
contained therein to reflect events and transactions occurring subsequent to February 25, 2009.

KPMG policy requires that we obtain a management representation letter associated with the
issuance of a performance audit report citing Generally Accepted Government Auditing Standards.
We requested a management representation letter from the Director, DOF, on February 20, 2009
and received the signed representation letter on February 25, 2009.

Please contact Mark Twerdok at (412) 232-1599 if you have any questions or comments regarding
this report.


Sincerely,




                                                -2-
FDIC’s Corporate Investment Program

FINAL REPORT

Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General
May 14, 2009




KPMG LLP
2001 M Street, NW
Washington, DC 20036
                                  Table of Contents

EXECUTIVE SUMMARY                                                               2

BACKGROUND                                                                      4

CORPORATE INVESTMENT PROGRAM POLICIES, PROCEDURES, AND                          7
GUIDELINES

  Recommendations Related to Corporate Investment Program Policy, Procedures,   8
  and Guidelines and Associated Internal Reviews

CONTINGENCY RESPONSE PLANNING                                                   9

  Recommendation Related to Contingency Response Planning                       11

AUTHORIZATIONS TO PURCHASE AND SELL INVESTMENT                                  12
SECURITIES

  Recommendation Related to the Authorizations and Execution of Investment      13
  Securities Transactions

VALIDATION OF COMPUTER-BASED FINANCIAL MODELS                                   13

  Recommendation Related to Performing Independent Validations of Computer-     14
  based Financial Models

FIGURE

  DIF and NLF Governance Framework                                              6

TABLE

  Key Corporate Investment Program Policies, Procedures, and Guidelines         7

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                                   15

APPENDIX II: GLOSSARY OF TERMS                                                  18

APPENDIX III: ACRONYMS USED IN THE REPORT                                       21




                                           I-1
EXECUTIVE SUMMARY

The FDIC Office of Inspector General (OIG) contracted with KPMG LLP (KPMG) to conduct a
performance audit of the FDIC’s Corporate Investment Program. Both the OIG and FDIC management
recognize that periodic, independent audits of the Corporate Investment Program are necessary and useful
for sound corporate governance. The results of this audit support the OIG’s commitment to FDIC
management to conduct an independent audit of the Corporate Investment Program every 3 years.

The objective of this performance audit was to assess the FDIC’s controls for ensuring that the Deposit
Insurance Fund (DIF) and National Liquidation Fund (NLF) are managed consistent with the FDIC’s
investment policies approved by the Board of Directors (the Board). As part of our work, we interviewed
key officials with responsibility for managing and implementing the Corporate Investment Program,
including the Deputy to the Chairman and Chief Financial Officer (CFO) and Division of Finance (DOF)
officials. We also reviewed relevant FDIC policies, procedures, guidelines, plans, and reports pertaining
to the Corporate Investment Program. Our work did not include an assessment of the sufficiency of
deposit insurance assessments or other funding sources to cover anticipated losses from insured
depository institutions.

We used the Government Accountability Office’s (GAO) November 1999 publication Standards for
Internal Control in the Federal Government as the primary criteria for conducting the audit. We chose
these standards because they define an overall framework for establishing and maintaining effective
internal control in federal agencies. In addition, FDIC Circular 4010.3, FDIC Enterprise Risk
Management Program, states that the GAO standards define the minimum acceptable level of quality for
internal control and provide the basis against which internal controls should be evaluated at the FDIC.
The GAO standards, which are intended to safeguard public resources and promote accountability, consist
of the following five components:

•   Control Environment – The attitude toward internal control and control consciousness established
    and maintained by management and employees.
•   Risk Assessment – The assessment of risk from external and internal sources at both the entity and
    activity level.
•   Control Activities – The activities that help identify, prevent, or reduce risks that can impede the
    accomplishment of organizational objectives. Common control activities include documentation,
    approvals, authorizations, verifications, separation of duties, and reporting.
•   Information and Communications – The exchange of useful information among people and
    organizations to support decisions and coordinate activities. Information should be communicated to
    management and employees who need it, and in a form and timeframe that helps them carry out their
    responsibilities.
•   Monitoring – The review of an organization’s activities and transactions to assess the quality of
    performance over time and determine whether controls are effective.

We also used FDIC policies and procedures and various industry-recognized guidelines and practices as
supplemental criteria in assessing the Corporate Investment Program. The Glossary in Appendix II
contains definitions of the terms used in this report.

In summary, we found that the FDIC had implemented a number of important controls designed to ensure
that the DIF and NLF are managed consistent with the FDIC’s Board-approved investment policies. Of
particular note, DOF had developed detailed procedures and guidelines to manage the day-to-day
operations of the funds. Additionally, the FDIC had created an Investment Advisory Group (IAG) to



                                                   I-2
monitor the performance of the funds and advise the CFO on investment strategies pertaining to the
funds. Further, the CFO and DOF officials reported regularly to the Board on the funds’ performance and
were taking proactive measures to help ensure the viability of the funds in response to uncertainties in the
banking industry.

While these actions are positive, control improvements in some areas of the Corporate Investment
Program are warranted. Specifically, the FDIC’s Corporate Investment Policy and DOF’s detailed
procedures and guidelines did not reflect current statutory definitions or current investment management
practices in some areas. In addition, although the FDIC had a strategy for responding to a liquidity
contingency involving the DIF, the FDIC can enhance its response planning by developing a
comprehensive written contingency funding plan that describes how the Corporation will implement its
strategy under the various contingency scenarios that could occur. Further, the FDIC can enhance its
investment management controls by implementing a system of dual control over the authorization and
execution of securities transactions and conducting periodic independent validations of key computer-
based financial models to ensure they function as intended. We identified one additional potential control
enhancement pertaining to interest rate risk management that we are reporting to the OIG separately
because we do not consider the matter to be significant in the context of our performance audit results.

We issued a draft of this report on February 25, 2009. We subsequently met with DOF and OIG
representatives and obtained informal feedback on the draft report. Based on the informal feedback we
received, we made certain changes that we deemed appropriate. On May 8, 2009, the CFO and Director,
DOF, provided a formal written response to our draft report.

We conducted this performance audit from September 2008 through January 2009 in accordance with
Generally Accepted Government Auditing Standards issued by the Comptroller General of the United
States. Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objective. This performance audit did not constitute an audit of financial statements in
accordance with Government Auditing Standards. KPMG was not engaged to, and did not render an
opinion on, the FDIC’s internal controls over financial reporting or over financial management systems
(for purposes of the Office of Management and Budget’s Circular No. A-127, Financial Management
Systems, July 23, 1993, as revised). KPMG cautions that projecting the results of our audit to future
periods is subject to the risks that controls may become inadequate because of changes in conditions or
because compliance with controls may deteriorate.




                                                    I-3
BACKGROUND

The FDIC has statutory responsibility for managing funds in the DIF and NLF. Brief descriptions of the
DIF and NLF follow.

The Deposit Insurance Fund

The DIF was established on March 31, 2006, following the merger of the former Bank Insurance Fund
(BIF) and Savings Association Insurance Fund (SAIF). The primary purpose of the DIF is to insure the
deposits and protect the depositors of FDIC-insured financial institutions and to resolve failed financial
institutions in a manner that results in the least possible cost to the Corporation. In order to remain viable,
the DIF must have adequate sources of liquidity to fund the Corporation’s operating costs and the
resolution of failed financial institutions. The DIF is funded principally by deposit insurance assessments
charged to insured financial institutions and interest earned on investments in U.S. Treasury obligations.
Additional funding sources, if needed, include the Federal Financing Bank, U.S. Department of the
Treasury (Treasury), Federal Home Loan Banks, and insured depository institutions. Ultimately, the full
faith and credit of the U.S. Government stands behind the FDIC’s obligations.

Section 13(a) of the Federal Deposit Insurance (FDI) Act provides that funds held in the DIF that are not
otherwise employed shall be invested in obligations of the United States or in obligations guaranteed as to
principal and interest by the United States. Further, the Treasury Secretary requires the FDIC to invest its
non-appropriated cash held in U.S. Treasury accounts in non-marketable U.S. Treasury securities. Such
securities include: U.S. Treasury certificates; conventional Treasury bills, notes, and bonds; callable
Treasury securities; Treasury Inflation Protected Securities (TIPS); and zero-coupon Treasury securities.
The FDIC purchases and sells these securities through the Bureau of Public Debt’s (BPD) Government
Account Series (GAS) program. Although the GAS program is not available to the general public,
securities can be purchased and sold through the program at current market prices and without transaction
costs to the Corporation. GAS program investments enjoy a high degree of transactional liquidity.

In early August 2008, the FDIC re-classified all of the investment securities in the DIF designated as held
to maturity (HTM) to available-for-sale (AFS). 1 This change was based on the FDIC’s determination that
it no longer had the positive intent and ability to hold securities classified as HTM until their maturity
dates due to significant actual and potential outlays related to the resolution of failed institutions. A key
result of this change is that the DIF will now be accounted for at fair value and, as a result, the reserve
ratio will be more volatile to changes in interest rates. To illustrate this point, the value of securities
classified as AFS typically decreases in a rising interest rate environment. In such an environment, a
decline in the value of the DIF investment portfolio would result in a lower reserve ratio, which could
impact the Board’s deposit insurance assessment decisions. 2

As of September 30, 2008, the balance of the DIF was $34.59 billion, down from $52.41 billion at the end
of 2007. This decrease was primarily due to outlays associated with the failure of insured financial
institutions and an increase in the FDIC’s provision for insurance losses. The DIF reserve ratio as of

1
  Debt securities in the DIF investment portfolio may be classified as either AFS or HTM. Securities classified as
AFS are accounted for at fair value, while securities classified as HTM are accounted for at amortized cost (i.e., the
face value of the securities plus their unamortized premium or less their unamortized discount). To be classified as
HTM, an entity must have the positive intent and ability to hold the security to its maturity.
2
  Pursuant to statute, if the DIF reserve ratio falls below 1.15 percent, or if the FDIC expects it to do so within 6
months, the FDIC must, within 90 days, establish and implement a plan to restore the DIF reserve ratio to 1.15
percent within 5 years absent “extraordinary circumstances.”


                                                          I-4
September 30, 2008, was 0.76 percent, which is below the 1.15 percent minimum level mandated by the
Federal Deposit Insurance Reform Act of 2005. On October 7, 2008, the Board approved a plan to
restore the DIF reserve ratio to 1.15 percent within the next 5 years as required by statute. The Board
subsequently extended the restoration plan horizon to 7 years based on “extraordinary circumstances.”

The National Liquidation Fund

The NLF consists of all funds held by the FDIC in its receivership and corporate liquidator capacities.
Investments in the NLF may include Treasury securities, federally-sponsored agency securities, overnight
and term interest-bearing deposits at a designated depository, repurchase agreements, and government
institutional money market funds. Among other provisions and restrictions, the term of any investment in
the NLF may not exceed 1 year. When not otherwise deployed, NLF funds are deposited at the Federal
Home Loan Bank of New York (FHLB-NY), the NLF’s current designated depository. FHLB-NY also
acts as custodian for the NLF’s other investment securities, principally, federally-sponsored agency
discount notes. As the NLF’s designated depository, FHLB-NY provides a variety of banking services
that facilitate the collection of receivership funds, payment of receivership expenses, and payment of
receivership dividends. In addition, the FDIC uses FHLB-NY to pay depositors of failed financial
institutions. The Division of Resolutions and Receiverships’ Dallas Field Office is responsible for
managing the FDIC’s banking relationship with FHLB-NY. As of September 30, 2008, the market value
of the NLF was $2.86 billion, up from $393 million at the end of 2007. This increase was primarily the
result of increased resolution activity.

DIF and NLF Investment Governance

The DIF and NLF are governed by two principal policies approved by the Board: the Corporate
Investment Policy and Liquidation Investment Policy (respectively). Among other things, these policies
define investment objectives for the funds, key roles and responsibilities, and reporting requirements to
the Board. Of particular note, the policies designate the CFO as having primary responsibility for
managing the DIF and NLF. The policies require the CFO to report quarterly to the Board on the
(1) status and recent investment experience of the funds, (2) current and prospective investment strategies
of the funds, (3) principal reasons for significant changes in either the investment experience or strategies
of the funds, and (4) actions taken that constitute exceptions to the policies. To assist the CFO in carrying
out his responsibilities, the FDIC established the IAG consisting of the CFO; the Director, DOF; and
three other members not directly involved in the DIF or NLF investment operations. Among other things,
the IAG advises the CFO on fund investment strategies, reviews current and projected economic
conditions, investment performance, and cash flow projections for the funds, and evaluates exceptions to
the Corporate Investment Policy and Liquidation Investment Policy. The IAG convenes quarterly.

The Director, DOF, is responsible for implementing the funds’ investment strategies and for managing the
day-to-day financial transactions of the funds, subject to the general supervision of the CFO. Within
DOF, the Treasury Management Section (TMS) handles the day-to-day purchase, sale, accounting, and
reporting of investment funds. TMS consists of two units, the Funding and Investments Unit (FIU) and
Treasury Operations Unit (TOU). FIU is responsible for monitoring current market conditions, making
investment decisions consistent with approved investment strategies, purchasing and selling investment
securities, and reporting to management on the performance and risks associated with the funds. TOU is
responsible for reviewing the long-term investment purchases and sales made by FIU and for recording
transactions in the FDIC’s accounting systems. TOU is also responsible for the overnight investment of
DIF funds. Both FIU and TOU have established detailed procedures and guidelines to implement their
collective investment management responsibilities. The Figure, which follows, illustrates the investment
governance framework for the DIF and NLF.



                                                     I-5
DIF and NLF Governance Framework



                FDIC
                 FDICBoard
                      Board                                Deputy
                                                            Deputytotothe
                                                                       theChairman
                                                                           Chairmanand
                                                                                    andCFO
                                                                                        CFO                                       IAG
                                                                                                                                   IAG

          Responsible
           Responsiblefor foroverall                          Responsible                                       Responsible
                                                                                                                  Responsiblefor  forMonitoring:
                               overall                         Responsiblefor
                                                                            formanaging
                                                                                 managingand
                                                                                           and                                        Monitoring:
        oversight
         oversightofoffunds
                       fundsininthe
                                 theDIF                   reporting                                             • •Overall
                                                                                                                    Overallinvestment,
                                                                                                                            investment,Treasury
                                     DIF                   reportingon
                                                                     onfunds
                                                                        fundsininthe
                                                                                  theDIF
                                                                                      DIFand
                                                                                          andNLF
                                                                                              NLF                                         Treasury
                  and
                   andNLFNLF                                 consistent
                                                              consistentwith
                                                                         withBoard-approved
                                                                               Board-approved                   securities
                                                                                                                  securitiesmarket,
                                                                                                                              market,and
                                                                                                                                       andeconomic
                                                                                                                                            economic
                                                                          policies
                                                                           policies                             conditions
                                                                                                                  conditions
                                                                                                                • •Performance
                                                                                                                    PerformanceofofthetheDIF
                                                                                                                                          DIFand
                                                                                                                                              andNLF
                                                                                                                                                  NLF
                                                                                                                • •Actions
                                                                                                                    Actionsthat
                                                                                                                             thatconstitute
                                                                                                                                  constituteexceptions
                                                                                                                                             exceptionstoto
                                                                                                                Board-approved
                                                                                                                  Board-approvedpolicies
                                                                                                                                     policies
                                                                     Director,
                                                                      Director,DOFDOF
                                                         Responsible
                                                          Responsibleforforday-to-day
                                                                            day-to-daypurchases,
                                                                                       purchases,               Responsible
                                                                                                                  Responsiblefor  forAdvising
                                                                                                                                      Advisingthe
                                                                                                                                               theCFO
                                                                                                                                                   CFO
                                                           sales,
                                                            sales,accounting,
                                                                   accounting,and
                                                                                andreporting
                                                                                     reportingofof              on:
                                                                                                                  on:
                                                                funds
                                                                 fundsininthe
                                                                           theDIF
                                                                               DIFand
                                                                                   andNLF
                                                                                       NLF                      • •Liquidity
                                                                                                                    Liquiditytargets
                                                                                                                              targets
                                                                                                                • •Investment
                                                                                                                    Investmentstrategies
                                                                                                                                 strategies

                                                            Manager,
                                                            Manager,Treasury
                                                                     TreasuryManagement
                                                                              Management
                                                                      Section
                                                                       Section




                                            TOU
                                             TOU                                                               FIU
                                                                                                                FIU
                       • •Executes                                                       • •Invests
                                                                                             Investscorporate
                                                                                                     corporateandandliquidation
                                                                                                                      liquidationfunds
                           Executes overnightinvestments
                                    overnight    investments                                                                      funds
                       • •Maintains                                                      • •Monitors
                                                                                             Monitorscurrent
                                                                                                      currentmarket
                                                                                                                marketconditions
                           Maintainsportfolio
                                      portfoliosystem
                                                system                                                                   conditions
                       • •Accounts                                                       and
                                                                                           andmakes
                                                                                                makesinvestment
                                                                                                        investmentdecisions
                           Accountsfor
                                     forcorporate
                                         corporateinvestments
                                                     investments                                                     decisions
                       • •Provides                                                       consistent
                                                                                           consistentwith
                                                                                                      withinvestment
                                                                                                            investmentstrategies
                           Providesback-office
                                     back-officesupport
                                                  supportfor
                                                           for                                                            strategies
                       corporate                                                         • •Prepares
                                                                                             PreparesIAG
                                                                                                       IAGbriefing
                                                                                                             briefingmaterials
                         corporateand
                                    andliquidation
                                         liquidationinvestments
                                                      investments                                                     materials
                                                                                         • •Prepares
                                                                                             Preparesmanagement
                                                                                                       managementand    andboard
                                                                                                                             board
                                                                                         reports
                                                                                           reports


Source: KPMG Analysis of Corporate Investment Program Documentation.

In addition, DOF staff use various software automation tools and industry information to support their
investment management activities, including those listed below.

    •    The Bloomberg Professional 3 system and other financial publications are used to obtain
         information on current and near-term economic and Treasury market conditions (such as yields,
         maturities, and other relevant information). Among other things, such information is used in
         formulating investment strategies for the DIF.
    •    PORTIA®, a Thompson Reuters application, is used to track DIF and NLF investment
         transactions, calculate earnings, generate cash receipts for interest and maturity payments,
         generate reports, and track performance. Details on PORTIA® are provided later in the report
         under the section entitled, Validation of Computer-based Financial Models.
    •    Microsoft Excel®-based spreadsheets are used to prepare and report financial information, such
         as cash flow projections for the funds, for senior management.
    •    The results of Financial Risk Committee meetings and the Division of Resolutions and
         Receiverships’ Resolutions Report to the FDIC Chairman are used to determine near-term
         funding requirements and liquidity targets for the funds.


3
 Bloomberg Professional is a trademark and servicemark of Bloomberg Finance L.P., a Delaware limited
partnership, or its subsidiaries.


                                                                                 I-6
CORPORATE INVESTMENT PROGRAM POLICIES, PROCEDURES, AND GUIDELINES

The Corporate Investment Policy and Liquidation Investment Policy provide a comprehensive framework
for the management and oversight of the DIF and NLF investment portfolios, respectively. In addition,
DOF has established detailed procedures and guidelines to implement the Corporate Investment Policy
and Liquidation Investment Policy and to manage the day-to-day activities of the funds. However, the
Corporate Investment Policy and DOF’s detailed procedures and guidelines do not reflect current
statutory definitions pertaining to the DIF or current investment management practices in some areas.
Up-to-date policies, procedures, and guidelines are an important internal control for ensuring that
processes are repeatable, consistent, and disciplined and for reducing operational risk associated with
changes in staff.

GAO’s Standards for Internal Controls in the Federal Government state that policies and procedures are
an integral part of an organization’s operations and a key control for ensuring that management’s
directives are carried out. In addition, Circular 4010.3, FDIC Enterprise Risk Management System,
requires divisions and offices to maintain current policies and procedures. The table below identifies key
Corporate Investment Program policies, procedures, and guidelines and their status.

Key Corporate Investment Program Policies, Procedures, and Guidelines
          Policies, Procedures, and Guidelines              Status                             Last Updated
    Corporate Investment Policy                                                X           December 2006
    Liquidation Investment Policy                                              √           October 2007
    Corporate Liquidity Guidelines                                             X           2002
    Procedures for Corporate Investment Purchases                              X           February 2004
    Procedures for Corporate Security Sales                                    X           March 2004
    Procedures for Investing the National Liquidation Fund                     X           January 2008
    Procedures for Corporate Cash Flow Modeling                                X           March 2002
Legend: √ - Policy, procedure, or guideline reflects current statutory definitions and investment practices.
        X - Policy, procedure, or guideline does not reflect current statutory definitions and/or investment practices
            in one or more areas.
Source: KPMG analysis of the FDIC’s Corporate Investment Program Policies, Procedures, and Guidelines.

We noted the following areas of the FDIC’s Corporate Investment Program policies, procedures, and
guidelines that needed to be updated:

      •   Corporate Investment Policy. The policy requires the DIF to consist of both a primary and
          secondary reserve 4 and defines specific investment objectives pertaining to each reserve.
          However, the secondary reserve has not had a balance since the FDIC reclassified all of the
          investment securities in the DIF to AFS in August 2008. Prior to the reclassification,
          approximately 66 percent of the DIF’s balance was in the secondary reserve. Because it is not
          known when the DIF will contain securities designated as HTM, the investment objectives of the
          primary and secondary reserves should be re-assessed. For example, the policy requires that the
          secondary reserve be managed to mitigate reinvestment risk by maintaining a laddered maturity

4
  According to the policy, the primary reserve represents the fund’s principal source of liquidity. The primary
reserve consists of overnight investments, investment securities designated as AFS, and investment securities
designated as HTM with remaining maturities of 3 months or less. The fund’s secondary reserve, which represents a
secondary source of funds, consists of investment securities designated as HTM that are not included in the primary
reserve.


                                                         I-7
        distribution. Because the HTM portfolio has been reclassified to AFS, the policy no longer
        contains specific controls to manage reinvestment risk.
    •   Corporate Liquidity Guidelines. The guidelines, which define the FDIC’s fund investment and
        borrowing strategies and address funding liquidity risk, 5 were developed prior to deposit
        insurance reform legislation and do not address liquidity strategies pertaining to the DIF. For
        example, the guidelines define target liquidity levels and related assumptions pertaining to the
        former BIF and SAIF that do not apply to the DIF. In addition, the guidelines describe corporate
        borrowing authorities, strategies, and limitations that have been modified by recent legislation.
    •   Procedures for Investing the NLF. The procedures define how the FDIC purchases, sells,
        accounts for, and monitors investment securities permitted by the Liquidation Investment Policy.
        However, the procedures do not reflect the change in the fund’s designated depository, from the
        FHLB-Chicago to FHLB-NY, that took place in July 2008.
    •   Procedures for Corporate Investment Purchases, Corporate Security Sales, and Corporate
        Cash Flow Modeling. Because these procedures were developed prior to deposit insurance
        reform legislation, they define activities and describe computer files pertaining to the former BIF
        and SAIF that DOF no longer uses in administering the DIF. In addition, the procedures do not
        reflect DOF’s practice of performing periodic validations of third-party-provided market pricing
        used by PORTIA®.
DOF officials advised us that the Corporate Investment Policy and Liquidation Investment Policy are
typically updated and approved by the Board on a 3-year cycle, or when the membership of the Board
changes. 6 Updates to DOF’s detailed procedures and guidelines occur on a periodic basis. However, the
introduction of legislation pertaining to the DIF, together with the high visibility of the DIF to the public
and the Congress, warrant more frequent reviews and updates of the Corporate Investment Program
policies, procedures, and guidelines. In the financial services industry, investment policies are typically
reviewed at least annually. Once the Corporate Investment Policy and DOF’s procedures and guidelines
are updated, it would be prudent for DOF to conduct periodic independent internal assessments of the
effectiveness of the program’s controls, including assessing whether the program’s policies, procedures,
and guidelines are current, accurate, and complete. DOF officials told us that an internal assessment of
the Corporate Investment Program was last conducted in December 2006. Such reviews would promote
sound governance and further the internal control and monitoring principles defined in Circular 4010.3.

Recommendations

We recommend that the CFO:

(1) Update the Corporate Investment Policy and DOF’s detailed investment procedures and guidelines
    and, where appropriate, obtain Board review and approval. As part of this effort, define the
    frequency with which the Corporate Investment Program policies will be reviewed for possible
    updates.




5
 Funding liquidity risk refers to cash-flow estimations and individual positions.
6
 For example, the current Corporate Investment Policy was approved by the Board in December 2006; the policy
had been previously reviewed and approved by the Board in November 2003. The Liquidation Investment Policy
was approved by the Board in October 2007; the policy had been previously reviewed and approved by the Board in
November 2004 .


                                                      I-8
We recommend that the Director, DOF:

(2) Conduct periodic independent internal assessments of the Corporate Investment Program, including its
    policies, procedures, and guidelines, to ensure such controls are operating as intended.


CONTINGENCY RESPONSE PLANNING

The FDIC has taken a number of proactive steps to prepare for a potential liquidity contingency involving
the DIF in which the FDIC would need to borrow funds from outside sources to meet the fund’s liquidity
needs. Such steps include executing a formal borrowing agreement with the Federal Financing Bank,
recommending to the Congress that the Corporation’s statutory line of credit with the Treasury be
increased to ensure the continued viability of the fund, and developing a strategy for borrowing funds
from outside sources (components of which are defined in the Large Bank Resolution Strategy and Action
Plan and various other briefing materials).

Although not mandated by statute or regulation, the FDIC can further enhance its contingency response
planning for the DIF by developing a comprehensive, written contingency funding plan that describes
how the Corporation will implement its strategy for borrowing from outside sources under the various
contingency scenarios that could occur. Such a plan would represent a proactive risk response planning
control for reducing operational risk, including risk associated with the unavailability of key individuals
during a contingency. A comprehensive contingency funding plan would also promote transparency and
communication throughout the Corporation regarding potential funding contingencies associated with
current and emerging business programs. The contingency funding plan should be reviewed and
approved by the Board which, by statute, has responsibility for managing the Corporation, and thus has
the ultimate responsibility for authorizing outside borrowing decisions on behalf of the Corporation.

The DIF is funded principally by deposit insurance assessments charged to insured financial institutions
and interest earned on investments in U.S. Treasury obligations. To ensure the DIF maintains adequate
liquidity, the CFO and DOF officials regularly monitor projected sources and uses of funds and purchase
or sell investment securities as needed. In addition, the Board may, under certain circumstances and
consistent with its statutory authority, raise deposit insurance premiums and impose special assessments
on insured financial institutions when additional funds are needed to replenish the DIF. However,
circumstances can occur in which these funding sources would not be sufficient to meet the immediate
liquidity needs of the DIF. To ensure the DIF remains liquid during such contingencies, the FDIC may
use its statutory authority to borrow funds from the Federal Financing Bank, Treasury, Federal Home
Loan Banks, and insured depository institutions (collectively referred to herein as outside sources).

We spoke with the CFO and DOF officials regarding how the FDIC would obtain funds from outside
sources in response to a liquidity contingency involving the DIF. These officials described a strategy
wherein the FDIC would first borrow up to $100 billion (on an as-needed basis and subject to statutory
limitations) from the Federal Financing Bank pursuant to a Note Purchase Agreement (NPA), dated
December 15, 2006 (as amended), between the FDIC and the Federal Financing Bank. The NPA defines
the terms and conditions in which the Federal Financing Bank will purchase notes from the FDIC and the
FDIC will request and repay advances. The current NPA is set to expire on September 30, 2009. The
Board has authorized the CFO, with the concurrence of the General Counsel, to execute, renew, maintain,
and make future minor modifications to the NPA and to execute and deliver future advance promissory
notes. The Board has also authorized the CFO, or designee, subject to the conditions of the NPA, to




                                                    I-9
request and repay advances up to, but not exceeding, $100 billion. 7 Should the FDIC require funding in
excess of the NPA, the FDIC would then borrow from the Treasury. DOF officials informed us that
although the FDIC has statutory authority to borrow from the Federal Home Loan Banks and insured
depository institutions, it is unlikely such borrowing sources would be used. 8

To its credit, the FDIC has developed the Large Bank Resolution Strategy and Action Plan, which
defines, among other things, activities for obtaining cash and other funding assistance to operate a
receivership and fund a bridge bank. While the Large Bank Resolution Strategy and Action Plan
addresses key aspects of a contingency funding plan, it was developed prior to the current financial crisis
and its focus is on one principal contingency—a large institution failure. The FDIC can strengthen its
contingency response planning for the DIF by developing a comprehensive, written contingency funding
plan that describes how the Corporation will implement its strategy for borrowing from outside sources
under multiple contingencies. FDIC Financial Institution Letter (FIL) 84-2008, Liquidity Risk
Management, dated August 26, 2008, recommends that FDIC-supervised institutions develop formal
contingency funding plans that address the various contingency scenarios that can occur and the factors
that might influence funding options. While we recognize that the FDIC’s liquidity risk profile differs
from the institutions it supervises, FIL 84-2008 identifies elements of a contingency funding plan that, if
tailored to the unique business needs of the FDIC, would benefit the Corporation’s liquidity response
planning efforts. The following points summarize key elements of a contingency funding plan as defined
in FIL 84-2008 and how these elements could apply to the FDIC.

    •    Roles and Responsibilities. Clearly defined responsibilities and lines of decision-making are
         critical for ensuring that all personnel understand their role during a liquidity contingency. While
         the FDIC has defined roles and responsibilities in its NPA, the Large Bank Resolution Strategy
         and Action Plan, and various other briefing materials, integrating these roles and responsibilities
         into a comprehensive, written plan would mitigate operational risk associated with the
         unavailability of key individuals during a contingency. Additionally, such a plan would promote
         awareness among division and office personnel who might become involved with a funding
         contingency.

    •    Potential Liquidity Contingencies. Clearly defined thresholds or measures for determining
         when a potential liquidity contingency has occurred or is about to occur are important
         components of successful contingency response planning. While the NPA prohibits the FDIC
         from obtaining advances under certain circumstances, 9 recent FDIC program initiatives, such as
         loss sharing agreements with financial institutions and the Temporary Liquidity Guarantee
         Program (TLGP), have introduced new liquidity risk and potential contingency funding scenarios
         for the DIF.

7
  In September 2008, the Board authorized the CFO to execute and deliver, or cause to be delivered, an amendment
to the NPA, on such appropriate terms and conditions as are satisfactory to the CFO and the General Counsel, in
order to increase the funding limit to an amount not to exceed $100 billion.
8
  According to section 14 of the FDI Act, the FDIC may borrow $30 billion from the Treasury, except to the extent
of any borrowing from insured depository institutions. In any case, the total of FDIC’s obligations is subject to the
maximum obligation limitation (MOL) set forth in section 15(c) of the FDI Act; see the Glossary for further
information. In addition, the Emergency Economic Stabilization Act of 2008 permits the FDIC to obtain loans in
connection with the increase of the deposit insurance coverage affected by that Act; such loans are excluded from
the $30 billion limitation and the MOL.
9
  For example, advances are conditioned on: (1) the DIF holding $500 million or less in cash and investments in
U.S. Treasury obligations at the time any advance is made and (2) that any advance will not cause the DIF to exceed
the statutory limitation on its maximum amount of outstanding obligations as defined in Section 15(c) of the FDI
Act. These conditions are consistent with provisions of Section 14(b) of the FDI Act, which permits the Federal
Financing Bank to set terms and conditions for FDIC borrowings.


                                                        I-10
     •   Monitoring. Monitoring includes techniques for identifying potential liquidity contingencies and
         reporting on actions taken in response to such contingencies (e.g., reporting to the Congress,
         outside agencies, and the public on the FDIC’s borrowing and repayment activities).

     •   Potential Funding Restrictions. Planning for circumstances that could trigger restrictions on
         contingent funding sources, such as the MOL, is a prudent business practice.

     •   Adequacy of Contingent Funding Sources. It is a prudent business practice to identify
         potential contingency funding sources, conditions and limitations on their use, and criteria for
         determining which sources will be used to address various contingencies. For example, a
         comprehensive contingency funding plan would reflect the FDIC’s prior determination that
         certain funding sources permitted by statute are not as cost-effective as others, or that certain
         sources would not be viable under certain circumstances.

Many of the above concepts are also referenced in the Basel Committee on Banking Supervision’s
September 2008 publication Principles for Sound Liquidity Risk Management and Supervision. For
example, the Basel publication states that financial institutions should maintain formal contingency
funding plans that contain clearly defined strategies for addressing liquidity shortfalls in emergency
situations. The publication also states that contingency funding plans should outline policies for
managing a range of contingencies, establish clear lines of responsibility, define clear invocation and
escalation procedures, and be regularly updated to ensure that the plans remain operationally robust.

The FDIC has not needed to draw on outside funding sources since 1991. 10 However, the deteriorating
economic and industry conditions of the past year underscore the importance of proactive contingency
response planning to cover unexpected developments in the financial services industry. A liquidity
contingency involving the DIF would likely attract significant public and congressional attention.
Accordingly, it would be prudent for the FDIC to develop a comprehensive, written contingency funding
plan that describes how the Corporation will implement its strategy for borrowing from outside sources
under the various contingency scenarios that could occur. Such a plan would represent an important
control for mitigating the risk associated with the unavailability of key individuals during an actual
liquidity contingency and for promoting transparency and communication throughout the Corporation. In
addition, a contingency funding plan could aid in assessing the impact of new corporate programs, such as
the TLGP and loss sharing agreements. The CFO and DOF officials should provide the contingency
funding plan to the FDIC’s Board which, by statute, has responsibility for managing the Corporation, and
thus has the ultimate responsibility for authorizing outside borrowing decisions on behalf of the
Corporation.

Recommendation

We recommend that the Director, DOF:

(3) Strengthen the FDIC’s contingency response planning for the DIF by developing a written
contingency funding plan that describes how the Corporation will implement its strategy for borrowing
from outside agency sources for the various contingencies that may occur. The completed contingency
funding plan should be provided to the Board for review and approval.




10
  The former BIF borrowed funds from the Federal Financing Bank in 1991 for working capital, which the FDIC
fully repaid with interest by 1993.


                                                     I-11
AUTHORIZATIONS TO PURCHASE AND SELL INVESTMENT SECURITIES

DOF implemented a number of important controls over the purchase and sale of investment securities in
the DIF and NLF. Such controls include preparing trade tickets to document the rationale and details
pertaining to securities transactions, documenting trade confirmations, and performing regular
reconciliations to help ensure securities transactions were properly recorded. However, DOF’s
investment procedures do not define a dual control over the authorization and execution of securities
transactions wherein the authorization is documented in advance of the transaction by an individual other
than the person responsible for executing the transaction. Management authorizations to purchase and
sell investment securities are based on consensus discussions. While our work did not identify any
instances of inappropriate securities transactions, establishing a dual control over the authorization and
execution of securities transactions would promote appropriate separation of duties in the FDIC’s
investment activities and mitigate the risk of intentional or unintentional errors.

The purchase and sale of DIF and NLF investment securities is principally handled by FIU. Although the
number of investment transactions that FIU processes per month varies, the size of the transactions during
the period October 1, 2007 through September 30, 2008 ranged from approximately $5 million to $1.4
billion. DOF employs similar processes for executing securities transactions for the DIF and NLF. To
illustrate these processes, the following summarizes how an investment security is purchased or sold in
the DIF.

As a matter of practice, FIU’s team leader or a senior financial analyst (collectively referred to herein as
the FIU) selects specific securities for purchase or sale after taking into consideration various factors,
including, but not limited to:

         •   constraints contained in the Corporate Investment Policy,
         •   constraints contained in the quarterly investment strategy approved by the IAG,
         •   current and expected macroeconomic conditions,
         •   the relationship between the yield on Treasury securities for different maturities (also referred
             to as Treasury yields), and
         •   the FDIC’s projected funding needs.

After considering these factors, FIU, in consultation with the TMS manager, tentatively identifies specific
securities and dollar amounts for purchase or sale and prepares a preliminary trade ticket. FIU forwards
the preliminary trade ticket to TOU, which enters the information into PORTIA®. After obtaining
current pricing information on the securities under consideration, FIU, in consultation with the TMS
manager, decides which securities will be purchased or sold. FIU then executes the securities purchase or
sale using BPD’s FedInvest Web site and prepares a final trade ticket to document the transaction. 11 FIU
forwards the final trade ticket and a transaction confirmation generated by FedInvest to TOU to ensure the
transaction is properly recorded in PORTIA®. TOU also enters the transaction information into the
FDIC’s New Financial Environment (the FDIC’s principal financial system) and performs daily and
monthly reconciliations to help ensure that the FDIC’s accounting records are current, accurate, and
complete and consistent with BPD’s records.

Establishing a system of dual control wherein the authorization to execute a security transaction is
documented in advance by an individual other than a person responsible for executing the transaction is a

11
  The final trade ticket includes such information as the security’s type, par amount, coupon rate, maturity date, call
date (if applicable), Committee on Uniform Security Identification Procedures (CUSIP®) identifier, quoted price,
and corresponding yield.


                                                         I-12
recognized control practice in the financial services industry. Such a control helps ensure appropriate
separation of duties in operations and mitigates the risk of errors. Trading policies for financial services
firms typically identify specific individuals or positions with the delegated authority to authorize and
execute securities transactions. Such delegations are generally based on the relative size and complexity
of the transaction. For example, significant dollar-value transactions typically require a higher-level
management authorization than smaller dollar transactions. Such control practices are also consistent
with GAO’s Standards for Internal Control in the Federal Government.

Recommendation

We recommend that the Director, DOF:

(4) Establish a system of dual control over the authorization and execution of securities transactions
    wherein the authorization is documented in advance of the transaction by an individual other than the
    person responsible for executing the transaction.


VALIDATION OF COMPUTER-BASED FINANCIAL MODELS

DOF relies extensively on PORTIA® and certain Microsoft Excel®-based spreadsheets to monitor and
report on the performance of investment securities in the DIF and to support the Corporation’s strategic
and tactical investment management decisions. Although DOF has taken steps to help ensure the integrity
of these computer-based financial models, periodic independent validations had not been performed on
them to ensure they function as intended. Periodic independent validations of computer-based financial
models is a recognized practice in the financial services industry for ensuring the reliability of the
information that the models produce.

PORTIA® is the principal computer-based financial model DOF uses to manage overnight funds and
investment securities. PORTIA® uses built-in financial algorithms and securities pricing information
from a third-party service provider 12 to calculate the maturity, yield, value, and modified duration of
investment securities. DOF uses PORTIA® to generate reports on the performance of investment
securities in the DIF and to support key strategic and day-to-day investment management decisions. DOF
also uses Excel®-based spreadsheets, some of which may be considered key, to support its investment
management activities and to brief senior FDIC management. For example, DOF uses an Excel®-based
spreadsheet to generate the Projected Monthly Cash Flow for the DIF. The spreadsheet uses
mathematical formulas to determine whether anticipated cash receipts and disbursements will result in a
cash flow surplus or deficit for the DIF. Such information is used to manage the DIF’s daily cash
positions and support overnight and long-term investment management decisions.

DOF has taken steps to help ensure the integrity of PORTIA® and the Excel®-based spreadsheets it uses
to monitor and report on the performance of investment securities. For example, DOF maintains these
models on an access-restricted network shared drive that is regularly backed up. Additionally, DOF
reviews data contained in the models to help ensure the accuracy of the data processed. While such steps
are positive, DOF has not established a procedure to have periodic independent validations performed of
PORTIA® and its key Excel®-based spreadsheets to help ensure the models function as intended.

12
   Each business day, TOU uploads the CUSIP®s of investment securities in the DIF to the Web site of a third-party
service provider. The service provider updates the market prices for each security and notifies TOU, by e-mail,
when the updates are complete. TOU then downloads the updated market prices from the service provider’s Web
site and imports the data into PORTIA®.


                                                       I-13
The Office of the Comptroller of Currency (OCC) has published guidance for the national banks it
supervises on the importance of conducting periodic independent validations of computer-based financial
models (Bulletin 2000-16 regarding model validation). 13 According to the bulletin, periodic independent
validation of computer-based financial models is a leading practice for mitigating the risk of relying on
erroneous information. The bulletin identifies three generic procedures that apply to any model
validation: (1) an independent review of the model’s logical and conceptual soundness, (2) a comparison
of the model against other models, and (3) a comparison of the model’s predictions against subsequent
real-world events. Depending on the circumstances, any or all three of these generic procedures apply
when validating a model’s input (i.e., assumptions and data), processing (i.e., mathematical computations
and formulas), and reporting components. The OCC Bulletin also describes a common misconception
that validations are not necessary for vendor models because the models have already “met the market
test.” The bulletin states that validations of vendor models often identify material processing errors,
illustrating that validation principles should be applied regardless of whether a model is purchased from a
vendor or developed in house.

A key concept contained in the OCC bulletin is that the depth and frequency of model validation
procedures should be consistent with the level of risk being managed and the complexity of the model
being validated. With respect to the Excel®-based spreadsheets used by DOF, such models have
relatively simple code that can be inexpensively checked to ensure that mathematical computations and
code are correct. Although PORTIA® contains more complex mathematical algorithms, the integrity of
the model’s computations, such as its modified duration computations, could be checked against an
independent source, such as the Bloomberg Professional 14 system, to help ensure computations are
reliable. Because of its organizational independence, DOF’s Administration and Internal Controls
Section could conduct validations of PORTIA® and DOF’s key Excel®-based spreadsheets as part of the
internal assessments recommended earlier in this report.

Recommendation

We recommend that the Director, DOF:

(5) Establish a procedure to perform periodic independent validations of PORTIA® and key Excel®-
based spreadsheets used in the Corporate Investment Program.




13
   In the winter 2005 publication of the FDIC’s Supervisory Insights, OCC Bulletin 2000-16 is identified as the
primary source for formal regulatory guidance on financial model governance.
14
   Bloomberg Professional is a trademark and servicemark of Bloomberg Finance L.P., a Delaware limited
partnership, or its subsidiaries.


                                                        I-14
                                                                                                      Appendix I
                                   OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

       The objective of this performance audit was to assess the FDIC’s controls for ensuring that the DIF and
       NLF are managed consistent with the FDIC’s investment policies approved by the Board. We conducted
       this performance audit from September 2008 through January 2009 in accordance with generally accepted
       government auditing standards. Those standards require that we plan and perform the audit to obtain
       sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based on
       our audit objective. We believe that the evidence obtained provides a reasonable basis for our findings
       and conclusions based on our audit objective.


Scope and Methodology

       To accomplish our objective, we:

       •    Interviewed key FDIC officials with responsibility for managing and implementing the Corporate
            Investment Program, including the CFO; Director, DOF; Deputy Director and Treasurer, DOF; Manager,
            TMS; and TOU and FIU personnel. We also interviewed FDIC personnel in the Division of Insurance
            and Research to gain an understanding of the manner in which information from the Financial Risk
            Committee flows to FIU. In addition, we met with GAO officials working on the annual audit of the
            FDIC’s funds financial statements to obtain an understanding of the work they perform.
       •    Reviewed relevant FDIC policies, procedures, guidelines, and plans, including, but not limited to the:
                •   Corporate Investment Policy
                •   Liquidation Investment Policy
                •   TMS FIU procedures
                •   Corporate Liquidity Guidelines
                •   DOF TMS Management Control Plan
                •   GAO’s financial statement audit process summary memoranda on the Corporate Investment
                    Process and Cash and Cash Equivalents
                •   Treasury Operating Circular, Responsibilities Relating to Government Investment Accounts
                    and Investment in Government Account Series (GAS) Treasury Securities

       •    Examined relevant FDIC reports summarizing the FDIC’s investment activities. Such reports included,
            but were not limited to, quarterly CFO Reports to the Board and Monthly Investment Status Reports for
            the DIF and NLF portfolios.
       •    Observed the October 22, 2008 IAG meeting.
       •    Identified and documented the FDIC’s governance structure for managing the DIF and NLF.
       •    Performed detailed analyses of the FDIC’s investment processes, including policy reporting
            requirements, investment trade execution, investment trade compliance, cash flow modeling, and cash
            reconciliations.
       Our work did not include an assessment of the sufficiency of deposit insurance assessments or other
       funding sources to cover anticipated losses from insured depository institutions.




                                                           I-15
Internal Control

       We assessed the Corporation’s internal controls and practices pertaining to investment activities in the
       DIF and NLF for consistency with relevant portions of the criteria listed below. These criteria, or
       portions thereof, may not be legally binding on the FDIC. However, we considered them during the audit
       because they define prudent business practices.

           •   GAO’s Standards for Internal Control in the Federal Government, dated November 1999
           •   Treasury Operating Circular, entitled Responsibilities Relating to Government Investment
               Accounts and Investment in Government Account Series (GAS) Treasury Securities, dated
               October 1, 2008
           •   The Board of Governors of the Federal Reserve System’s Trading and Capital-Markets Activities
               Manual, dated April 2003
           •   Basel Committee on Banking Supervision’s Principles for Sound Liquidity Risk Management and
               Supervision, dated September 2008
           •   FIL-84-2008, Liquidity Risk Management, dated August 26, 2008
           •   OCC Bulletin 2000-16 regarding model validation, dated May 2000
           •   Buy Side Risk Managers Forum and Capital Market Risk Advisors’ Risk Principles for Asset
               Managers, dated February 25, 2008
           •   Federal Housing Finance Board Office of Supervision Advisory Bulletin (06-02), Model
               Documentation and Validation, dated March 20, 2006
           •   The Financial Services Roundtable, Guiding Principals in Risk Management For U.S.
               Commercial Banks, dated June 1999
           •   Institute of International Finance, Principles of Liquidity Risk Management, dated March 2007
           •   Senior Supervisors Group, Observations on Risk Management Practices during the Recent
               Market Turbulence, dated March 6, 2008
           •   Committee of European Banking Supervisors’ Second Part Of CEBS’S Technical Advice to the
               European Commission on Liquidity Risk Management, dated June 17, 2008


Reliance on Computer-processed Information


       Our audit objective did not require that we separately assess the reliability of computer-processed data to
       support our findings, conclusions, and recommendations. Additionally, in performing this performance
       audit, we did not consider it necessary to evaluate the effectiveness of information system controls in
       order to obtain sufficient, appropriate evidence.


Performance Measurement

       The FDIC’s 2008 Annual Performance Plan did not contain performance goals directly related to our
       audit objective. However, DOF had developed a Balanced Scorecard containing performance
       measurement information for both the DIF and NLF. Among other things, the Balanced Scorecard
       measured the total return of the DIF investment portfolio against the Merrill Lynch 1-10 Year U.S.
       Treasury Index and the total return of the NLF investment portfolio against the average yield of the
       generic 3-month U.S. Treasury bill. We considered information contained in DOF’s Balanced Scorecard
       in planning and conducting our audit work.




                                                           I-16
Compliance with Laws and Regulations

      We determined that the following statutory provisions were relevant to our audit objective.

      The FDI Act:
         • Sections 11(a) and (d), Deposit Insurance, Powers and Duties of Corporation as Conservator or
             Receiver
         • Section 13(a), Investment of Corporation’s Funds
         • Section 14, Borrowing Authority
         • Section 15(c), Limitation on Borrowing

      Emergency Economic Stabilization Act of 2008:
         • Section 136(a)(3), Borrowing Limits Temporary Lifted

      We found no instances of noncompliance with these statutory provisions. In addition, we assessed the
      risk of fraud and abuse related to the audit objective in the course of evaluating audit evidence.


Prior Coverage

      We considered the FDIC OIG’s July 2005 report, entitled The FDIC’s Investment Policies (Report
      No. 05-025), in planning and conducting our work. The objective of this prior audit was to determine
      whether the FDIC’s investment strategy and portfolio management procedures provide the highest
      possible investment returns for the FDIC, taking into consideration the applicable legal and regulatory
      framework established for investments by the BIF, SAIF, and Federal Savings and Loan Insurance
      Corporation Resolution Fund. The report contained five recommendations, all of which were resolved
      and closed prior to the start of our work.




                                                         I-17
                                                                                                 Appendix II
                                        GLOSSARY OF TERMS


Available-for-Sale (AFS)
Debt and equity securities not classified as either HTM securities or trading securities are classified as
AFS securities and reported at fair value, with unrealized gains and losses excluded from earnings and
reported in a separate component of shareholders’ equity (see definition for Financial Accounting
Standard 115 below). In the case of the DIF’s financial statements, these gains and losses are shown as a
separate line item in arriving at comprehensive income. In addition, the DIF does not have any
investment securities classified as trading securities.

Bureau of Public Debt (BPD)
BPD is an agency within the Treasury that borrows funds needed to operate the federal government
through the issuance of such securities as U.S. Savings Bonds, Treasury Bills, and Treasury Notes. The
BPD pays interest on these borrowings and when the borrowings mature, BPD redeems the securities.

Committee on Uniform Security Identification Procedures (CUSIP®)
CUSIP® typically refers to both the Committee on Uniform Security Identification Procedures and the 9-
character alphanumeric security identifiers that the committee distributes for all North American
securities for the purposes of facilitating clearing and settlement of trades. The CUSIP® distribution
system is owned by the American Bankers Association and is operated by Standard & Poor’s. The
CUSIP® Service Bureau acts as the National Numbering Association for North America, and the
CUSIP® serves as the National Securities Identification Number for products issued from both the United
States and Canada.

Designated Reserve Ratio (DRR)
Under the Federal Deposit Insurance Reform Act of 2005, the FDIC must, by regulation, set the DRR for
the DIF within a range of 1.15 percent to 1.50 percent. The DRR is defined as the DIF’s net worth to the
value of the aggregate estimated deposits insured by the fund.

Duration
In finance, the duration of a financial asset measures the sensitivity of the asset’s price to interest rate
movements, expressed as a number of years. Duration is useful primarily as a measure of the sensitivity
of a bond’s market price to interest rate (i.e., yield) movements. It is approximately equal to the
percentage change in price for a given change in yield. For example, for small interest rate changes, the
duration is the approximate percentage by which the value of the bond will fall for a 1 percent per annum
increase in market interest rates. So a 15-year bond with a duration of 7 would fall approximately 7
percent in value if interest rates increased by 1 percent per annum. In this respect, duration is the
elasticity of a bond’s price in relation to interest rates.

Financial Accounting Standard (FAS) 115
FAS 115 addresses the accounting and reporting for investments in equity securities that have readily
determinable fair values and for all investments in debt securities. Those investments are to be classified
in three categories and accounted for as follows:

    •   Debt securities that the enterprise has the positive intent and ability to hold to maturity are
        classified as HTM securities and reported at amortized cost.




                                                     I-18
    •   Debt and equity securities that are bought and held principally for the purpose of selling them in
        the near term are classified as trading securities and reported at fair value, with unrealized gains
        and losses included in earnings.

    •   Debt and equity securities not classified as either HTM securities or trading securities are
        classified as AFS securities and reported at fair value, with unrealized gains and losses excluded
        from earnings and reported in a separate component of shareholders’ equity (see definition for
        AFS above for additional clarification).

Federal Financing Bank (FFB)
The FFB is a government corporation, created by the Congress in 1973, under the general supervision of
the Treasury Secretary. The FFB was established to (among other things) centralize and reduce the cost
of federal borrowing, as well as federally-assisted borrowing from the public. The FFB has statutory
authority to purchase any obligation issued, sold, or guaranteed by a federal agency to ensure that fully
guaranteed obligations are financed efficiently.

Government Account Series (GAS) Program
On a daily basis, BPD offers special-issue, non-marketable Treasury securities that are direct obligations
of the United States and are offered exclusively in book-entry form. Although the GAS program is not
available to the general public, securities can be purchased and sold through the program at current
market prices. The Treasury Secretary has restricted federal agencies with investment authority,
including the FDIC, to buying and selling such securities through the GAS program.

Held-to-Maturity (HTM)
Debt securities that the holder has the positive intent and ability to hold to maturity. HTM securities are
reported at amortized cost (see FAS 115).

Interest Rate Risk
Interest rate risk is the potential that changes in interest rates may adversely affect the value of a financial
instrument or portfolio or the condition of the institution as a whole. In general, the values of longer-term
instruments are more sensitive to interest rate changes than the values of shorter-term instruments.
Interest rate risk is commonly measured by a bond’s duration.

Liquidity
Liquidity is the ability to fund increases in assets and meet obligations when they come due.

Liquidity Risk
Liquidity risk is the risk that an organization will not be able to meet its obligations when they come due.
Relevant liquidity risk concepts include:

    •   Market Liquidity Risk, which refers to the inability of an organization to sell its assets at or near
        market value.
    •   Funding Liquidity Risk, which refers to cash flow estimation or mismatch risk for both assets and
        liabilities.
    •   Contingency Planning (including stress testing), which refers to how, in the absence of market
        funding liquidity, an organization can continue to meet its obligations, particularly under periods
        of stress.




                                                     I-19
Liquidity Risk Management
Liquidity risk management involves the processes, controls, and infrastructure for mitigating liquidity
risk.

Maximum Obligation Limitation
The MOL refers to the provisions of Section 15(c) of the FDI Act that limit the DIF’s ability to incur
obligations other than deposit insurance guarantees. The MOL is the sum of: (a) DIF’s cash and
investments in Treasury securities valued at market value; (b) DIF’s other assets valued at 90 percent of
estimated market value; and (c) the $30 billion line of credit with Treasury pursuant to Section 14(a) of
the FDI Act. “Obligations” include guarantees issued by the FDIC, amounts borrowed under section 14
of the FDI Act, and obligations for which the FDIC has a direct or contingent liability to pay.

Reserve Ratio
The reserve ratio is a numeric figure reflecting the DIF balance divided by the DIF’s estimated insured
deposits. The reserve ratio is a key measure used by the FDIC in assessing the adequacy of the fund’s
balance and in formulating deposit insurance assessment policy.




                                                   I-20
                                                                         Appendix III
                         ACRONYMS USED IN THE REPORT

AFS            Available-for-Sale
BIF            Bank Insurance Fund
BPD            Bureau of Public Debt
CFO            Chief Financial Officer
CUSIP®         Committee on Uniform Security Identification Procedures
DIF            Deposit Insurance Fund
DOF            Division of Finance
FDI            Federal Deposit Insurance
FFB            Federal Financing Bank
FHLB-Chicago   Federal Home Loan Bank of Chicago
FHLB-NY        Federal Home Loan Bank of New York
FIL            Financial Institution Letter
FIU            Funding and Investments Unit
GAO            Government Accountability Office
GAS            Government Account Series
HTM            Held-to-Maturity
IAG            Investment Advisory Group
KPMG           KPMG LLP
MOL            Maximum Obligation Limitation
NLF            National Liquidation Fund
NPA            Note Purchase Agreement
OCC            Office of the Comptroller of the Currency
OIG            Office of the Inspector General
SAIF           Savings Association Insurance Fund
TIPS           Treasury Inflation Protected Securities
TLGP           Temporary Liquidity Guarantee Program
TMS            Treasury Management Section
TOU            Treasury Operations Unit




                                           I-21
                Part II

Corporation Comments and OIG Evaluation
CORPORATION COMMENTS AND OIG EVALUATION

    On May 8, 2009, the CFO and Director, DOF, provided a written response to a draft of
    this report. Management’s response is presented in its entirety beginning on the next
    page. Management generally concurred with KPMG’s findings and recommendations.

    In response to recommendation 1, the CFO plans to update the Corporate Investment
    Policy (where appropriate) and present it to the Board for review and approval by
    October 31, 2009. When updating the policy, the CFO will discuss with the Board its
    preference with respect to the appropriate interval between investment policy updates and
    incorporate the Board’s preferences for making such updates into the policy. In addition,
    the CFO plans to update DOF’s detailed investment procedures and guidelines (where
    appropriate) by December 31, 2009. The CFO will periodically bring these updated
    procedures and guidelines, as appropriate, to the IAG for review and approval.

    In response to recommendation 2, the Director, DOF, plans to conduct independent
    internal reviews of the Corporate Investment Program every 18 months, or more
    frequently if conditions warrant. DOF will conduct the first of these reviews in the
    second half of 2009. In response to recommendation 3, the CFO and Director, DOF, will
    strengthen the FDIC’s contingency funding plans by incorporating appropriate language
    regarding FDIC’s contingency funding authorities and strategies into the Corporate
    Investment Policy and present it to the Board for approval in the fourth quarter of 2009.

    In response to recommendation 4, the Director, DOF, will amend existing procedures for
    purchasing and selling Treasury securities to require an original approval signature of an
    authorized DOF staff member on the trade ticket. In addition, the individual who
    approves the purchase and sale of a security will not be the same individual who
    subsequently executes the transaction. DOF plans to implement this new control for all
    securities transactions occurring after June 30, 2009. In response to recommendation 5,
    DOF will verify key computations within PORTIA® (such as its modified duration
    computations) whenever the software is upgraded. Such verifications will be performed
    as part of the periodic internal reviews described in DOF’s response to recommendation
    2. In addition, DOF will ensure that formulas contained in key Excel®-based
    spreadsheets that DOF has developed for regular analysis and reporting on investments
    are periodically verified as a part of the division’s periodic internal reviews.

    A summary of management’s response to the recommendations is on page II-6. DOF’s
    planned actions are responsive to KPMG’s recommendations. The recommendations are
    resolved, but will remain open until we determine that the agreed-to corrective actions
    have been completed and are responsive.




                                               II-1
CORPORATION COMMENTS




        II-2
II-3
II-4
II-5
                       MANAGEMENT RESPONSES TO RECOMMENDATIONS

       This table presents management’s responses to the recommendations in KPMG’s report
       and the status of the recommendations as of the date of report issuance.


Rec.       Corrective Action: Taken or Planned                Expected              Monetary Resolved:a Open or
No.                                                        Completion Date          Benefits Yes or No Closedb
 1         The CFO will update the Corporate              December 31, 2009           $0     Yes        Open
           Investment Policy, as appropriate, and
           present it to the Board for approval in
           late 2009. In addition, DOF will
           periodically update procedures and
           guidelines for investing the Corporate
           and liquidation investment portfolios to
           reflect current practices and
           terminology and present them, as
           appropriate, to the IAG for review and
           approval.
 2         DOF plans to conduct internal reviews          December 31, 2009              $0       Yes            Open
           every 18 months, or more frequently if
           conditions warrant, and will conduct the
           first of these reviews in the second half
           of 2009.
 3         DOF will incorporate appropriate               October 31, 2009               $0       Yes            Open
           language regarding the FDIC’s
           contingency funding authorities and
           strategies into the Corporate Investment
           Policy.
 4         DOF will amend existing procedures for         June 30, 2009                  $0       Yes            Open
           securities transactions by requiring an
           original approval signature of an
           authorized DOF staff member on trade
           tickets and subsequent transaction
           execution by a different DOF staff
           member.
 5         DOF will ensure that verifications are         December 31, 2009              $0       Yes            Open
           performed, as appropriate, of PORTIA®
           and key Excel®-based spreadsheets as
           part of DOF’s periodic internal reviews
           described under Recommendation 2.

       a
           Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                          corrective action is consistent with the recommendation.
                      (2) Management does not concur with the recommendation, but alternative action meets the
                          intent of the recommendation.
                      (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                          Monetary benefits are considered resolved as long as management provides an amount.
       b
         Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive to
       the recommendations, the recommendations can be closed.




                                                            II-6
